   (8-89)
EFG (07-90)


United States Government                                                      Department of Energy

 Memorandum
              DATE:   March 26, 2004

       REPLY TO       IG-30 (A03RL15)                                   Audit Report No.: OAS-L-04-12
       ATTN OF:


      SUBJECT:        Audit of Consolidation of Hanford's Surplus Plutonium-Bearing Material

                TO: Assistant Secretary for Environmental Management

                      INTRODUCTION AND OBJECTIVE

                      The Department of Energy's (Department) Office of Environmental Management (EM) and
                      National Nuclear Security Administration (NNSA) are responsible for stabilization,
                      repackaging and safeguarding of about 13 metric tons of surplus weapons-usable plutonium
                      or plutonium-bearing material (surplus plutonium). The Defense Nuclear Safety Board
                      (DNFSB) agreed to the stabilization and repackaging as long as there would be a continued
                      surveillance of the material.

                      In the 1997 Record of Decision for the Storage and Dispositionof Weapons-UsableFissile
                      MaterialsFinalProgrammaticEnvironmentalImpact Statement, the Department planned
                      to transfer surplus plutonium to the Savannah River Site (SRS) for conversion to reactor
                      fuel or immobilization in a glass or ceramic material. In a January 2004 draft decision
                      memorandum, EM planned to proceed with these efforts and to ultimately dispose of the
                      immobilized material at Yucca Mountain. The Department plans to begin the effort despite
                      DNSFB concerns over the suitability of long term storage facilities at SRS. Transfer of the
                      Hanford Site's surplus material and de-inventory of the Plutonium Finishing Plant by
                      September 2007 are dependent on the availability of transportation resources and the
                      completion of a number of other actions by the Department. Because of the importance of
                      this issue and the potential impact on current remediation efforts, we initiated this audit to
                      determine whether the Department should proceed with its plan to consolidate Hanford's
                      surplus plutonium at SRS.

                      CONCLUSIONS AND OBSERVATIONS

                      The Department faces many challenges before the surplus plutonium at the Hanford Site
                      can be moved to SRS and then to a final disposal site. While a number of actions have
                      been taken on these issues, none were completely resolved by the completion of our audit.
                      For example, although EM had established a shipping schedule for consolidating Hanford's
                      material, it is dependent on the ability of the Office of Secure Transportation to hire and
                      train additional teams to transport the surplus plutonium. In addition, EM still needs to
                      address DNFSB concerns over the lack of appropriate facilities for long term storage at
                      SRS. Further, EM has yet to complete design on a method to transform the surplus
                      plutonium into a waste form that can be stored at the Yucca Mountain repository. In
  particular, we noted that the previously planned immobilization facility at SRS had been
  cancelled, the yet to be constructed Mixed Oxide Fuel Fabrication Facility has not received
  regulatory approval, and plans for disposition of the surplus plutonium have not been
  formally adopted.

  EM made the consolidation proposal because it believed that placing the material in one
  location would be safer, more secure, and less expensive than maintaining it at its current
  locations. For contingency purposes, the Department plans to maintain the capability for
  temporary, above ground storage of surplus plutonium at Hanford to accommodate
  shipping or other delays during consolidation. Richland Operations Office officials also
  have indicated that based on recent discussions with EM Headquarters that they are no
  longer considering long term on-site storage of this material.

  Not resolving these uncertainties could result in significant expenditures as well as impact
  accelerated clean-up schedules. Uncertainties regarding processing capabilities and
  disposition paths may also complicate the Department's effort to satisfy statutory
  requirements regarding removal of Hanford's surplus material from South Carolina.
  According to the Fiscal Year 2003 National Defense Authorization Act, the Department
 "must remove froni South Carolina an amount equal to the amount of plutonium shipped
  into the state by January 1, 2017, or face fines of $1 million per day, up to $100 million per
  year.

  Since no formal recommendations are being made in this letter report, a formal response is
  not required. However, to ensure a cost-effective, secure and safe approach for storing and
  consolidating surplus plutonium, we suggest that the Department closely monitor
  transportation issues; take action to address the DNFSB storage concerns at SRS; and,
  develop an alternate plan to address consolidation needs should current plans fail to
  materialize because of technical or other problems.

  SCOPE AND METHODOLOGY

 The audit was performed between December 2002 and February 2004, at the Hanford Site
 in Richland, Washington; the Savannah River Site in Aiken, South Carolina; the Lawrence
 Livermore National Laboratory in Livermore, California; Los Alamos National Laboratory
 in Los Alamos, New Mexico; and, the Office of Environmental Management and National
 Nuclear Security Administration at Germantown, Maryland and Washington D.C. The
 scope of the audit included a review of stabilization and storage of the Hanford Site surplus
 plutonium.

  To accomplish the audit objective, we reviewed cost data for the security, shipment, and
  other costs associated with the disposal of the Hanford Site's surplus. We evaluated
  logistics and timing for shipping surplus plutonium materials. We also reviewed the Record
  of Decision and Amendments to the Storage and Disposition of Weapons-UsableFissile
  Materials. Finally, we held discussions with Richland Operation Office and EM program.
-officials.




                                        2
The audit was conducted in accordance with generally accepted Government auditing
standards for performance audits and included tests of internal controls and compliance
with laws and regulations to the extent necessary to satisfy the audit objective.
Accordingly, we assessed internal controls and performance measures established under the
Government Performanceand Results Act of 1993 related to the Department's clean up,
stabilization and storage of special nuclear material at the Hanford Site Plutonium
Finishing Plant. Because our review was limited, it would not have necessarily disclosed
all internal control deficiencies that may have existed at the time of our audit. We did not
assess the reliability of computer-processed data because it was not critical to achieving our
audit objective.

We discussed the audit results with EM Headquarters, Richland Operations Office and SRS
officials on February 19, 2004.

We appreciate the cooperation of your staff throughout the audit.




                                          Rickey R. Hass
                                          Acting Assistant Inspector General
                                           for Audit Services
                                          Office of Inspector General

cc: Deputy Assistant Secretary for Integration and Disposition, EM-2.2
    Manager, Richland Operations Office
    Team Leader, Audit Liaison Team, ME-1.1
    Audit Liaison, ORP




                                      3
04/01/04               THU 09:54 FAX 423 241 3897               OIG                             -*-*   HQ                          @]002
DO   Ir 1i325I

 U-0 (u?.-u)


United States Government                                                                                    DepartLent of enirgy



memorandum
            D•TE:       March 26, 2004
      REPLY TO:         IG-36 (A03RL015)
        SLUJCUT;        Final Report Package for "Audit of Consolidation of Hanford's Surplus
                                                                                              Plutonium-Bearing
                        Material"

                 TO:    Linda J. Snider, Director for Planning and Administration (DPA)


                        Attached is the required final report package on the subject audit. The pertinent details are:
                        1. Staff days:      Programmed       N/A               Actual     N/A

                        2.Elapsed days:    Programm.ed       364               Actual     471

                        3. Names of OIG audit staff:
                             Assistant Regional Manager:               Phillip D. Beckett
                             Team Leader (Audit-Control-Point):        Michael R. Kuklok
                             Auditor-in-Charge:                        Terrence V. Gremel
                             Audit Staff:                              Jolene K. Boughton
                        4. This report has been discussed with OIG Investigations and Inspections personnel.
                                 Michael Matkowski, Investigations, June 27, 2003
                                 John Vande Sand, Inspections, June 23, 2003
                        5. Matters to be brought to attention of the IG or AIGA: None




                                                                       Phillip L    olbrook,    irecto
                                                                       Environmental Audits Division
                                                                       Office of Inspector General
                        Attachments:
                        1. Final Report (3)
                        2. Monetary Impact Report
                        3. IGDBMS File Printout
04/01/04       THU 09:54 FAX 423 241 3897                          OIG                                ---       HQ                   003

                         MONETARY IMPACT OF REPORT NO.:                                    OAS-L-04-12

I. Title of Audit:        Audit of Concolidation of IIanford's Surplus Plutonium-Bearing Materia

2. Division:              Environmental Audit Division (EAD) Richland Audit (RLA)

3. Project No.:           A03RL015

4. Type of Audit:

       Financial:                                               Performance:       X
         Financial Statement                                      Economy and Efficiency                    X
         Financial Related                                        Program Results
       Other (specify type):

5. Please report monetary savings identified in the report using applicable columns. Provide additional
explanations of audited activities/locations in Section No. 6 - Remarks.

                                                                                                       MGT.              POTENTIA.
            FINDING                   COST                        QUESTIONEI) COSTS                  POSITION             BUDGET
                  -             AVOIDANCE                                                                                 IMPACT
(A)             (B)             (C)       (D()         E(G)                                (H)          (I)                  J)
                Title           One    ReLurring   Qicstioned      Unsup-     Unrc-       Total      C-Conur               Y=Ycs
                              ''imo     Anount                     ported    solved    (B)+(F)((i)   N=Noncon              N-No
                                        PerYear                                                      U-Undec
      N/A




TOTALS--ALL. FINrDINOS



6. Remarks: N/A

7. Contractor:  None                                10. Approvals:
8. Contract No.: None                               Division Director/Date:           _/                             _

9. Task Order No.:         None                      Technical Advisor & Date
    04/01/04            THU 09:55 FAX 423 241 3897                                        OIG                                       -- 4    HQ                  [006
                                                          Audit           Project         Office           Summary          (APS)
                                                                                                                                                            Page 1
keport run on:                                  March          31, 2004 3:31 PMage                                                                               1


  Audit#: A03RL015                           Ofc:        RLA        Title: PLUTONIUM FINISHING PLANT AT THE HANFORD SITE

                                      ..                                        .**** Milestones ***
                                                                  Planned      End of Survey             Revised      Actual
                                                                 --------- - -----------------------------   ------------------
  Entrance Conference:.....                                     01-OCT-02                                         11-DEC-02                11-DEC-02
   Survey:..................                                                                                      03-MAR-03                03-MAR-03
  Draft Report:...........                                     13-JUN-03                                          10-MAR-03
  Completed (With Report):.                                     30-SEP-03                                         26-MAR-03                26-MAR-04   (R   )
  ------------                 Elapsed Days:                             364                                                                     471
                                                                                                                            Elap. Less Suap:
  Date Suspended;                                                                    Date Terminated;
  Date Reactivated:                                                                Date Cancelled:
  DaysSuspended(Cur/Tot) ;                                          (             )Report Number:                 OAS-L-04-12
  Rt Title:                              Report Type:     LTR LETTER REPORT
  AUDIT OF CONSOLIDATION OF HANFORD'S SURPLUS PLUTONIUM-BEARING MATERIAL.



                                                                 ****     Audit Codes and Personnel ****
  Class:              PER          PERFORMANCE
  Program: EM1                     Not Found
  MgtChall: 032                    ENVIRONMENTAL CLEANU
  Site:               SSA          SINGLE-SITE AUDIT                                                   AD : 327             BECKETT
                                                                                                      AIC: 431              GREMEL
  SecMiss:           ENV           ENVIRONMENTAL QUALIT
                                                                                             Team Ldr:            546       KUKLOK
  PresInit: IFP                    IMPROVED FINANCIAL P                                      Tech Adv:            432       GAMAGE

                                           .....       -Task            ****-           Information ***.                .

         Task No:
         Task Order Dt:                                                              CO Tech. Rep;
         Orig Auth Hrs:                                                              Orig Auth Costs:
          Current AUth;                                                              Current Auth Cost:
          Tot Actl IPR Hr:                                                           Tot Actl Cost:


                                                                          ****       Time Charges          ****
                               g
                          E p/Cont Name                          NWimdays                  Last    .ata.
                          NIELSEN,                 A                           1.1        22-MAR-03
                          KIRKHAM,                 J                           4.2        24-JAN-04
                          KUKLOK, M                                        26.4           06-MAR-04
                          BOUGHTON, J                                     148.5           21-FEB-04
                          GREMEL, T                                      189.4            06-MAR-04
                          STotal;                         _a369.6
   04/01/04    THU 09:55 FAX 423 241 3897                   OIG                         -*-*   HQ               [007
                                   Audit Project Office Summary                 (APS)

Report run on:              March 31, 2004 3:31 PM                                                           Page 2


                                           **** Keywordsi'.****         .


                 COST
                 DOE
                 HANFORD
                 OFFICE OF SECURE TRANSPORTATION
                 PLUTONIUM FINISHING PLANT
                 REDUCE/REDUCTION
                 RICHLAND OPERATIONS OFICE
                 SAVINGS
                 STABILIZATION
                 STUDY
                 SURPLUS PLUTONIUM
                 WEAPONS-USABLE


    oc                           ****    Location Information **'**
      oe d
             Description

   HSF       HANFORD SITE FACILITY - R
   LAO       LOS ALAMOS AREA OFFICE, L
   RFC       ROCKY FLATS PLANT, ROCKY
   SRO       SAVANNAH RIVER OPERATIONS

                                        ****Pinding Information       **Bud    Mt   Det t           D   t
   Find#                'Title            .pe               Amout     Yrs "M   Pos .Pos
                                                                               P                    Amount    Date
                                                      ...   ..   ..
   04/01/04       THU 09:56 FAX 423 241 3897                           OIG                                                       HQ             1008
                                         " "~"~   -- -       **       kmu-       _   *       „   *   IM        - --   ^f -

                                   Audit     Project Office Summary                                                      (APS)

Report run on:                March 31, 2004 3:31 PM                                                                                      Page 3


                                                   Audit Hi tory                                           .

 Audit No:        A03RL015                   History Date:                           31-MAR-04
 History Text:
  PB/ ENTERED COMPLETED WITH REPORT DATE.




              _      _._._                               .        _          _           .                _._._                       _     _
04/01/04   THU 09:55 FAX 423 241 3897                  OIG                         -*-*   HQ                   ] 004


                                AUDIT DATABASE INFORMATION SHEET


Project No.:         A03RL015

1. Titleof Audit: Audit of Consolidation of Hanford's Surplus Plutonium-Bearing Material

2. Report No./Date     March 26, 2004

3. Management Challenge Area:                    013

4. Presidential Mgmt Initiative:    _N/A


5. Secretary Priority/Initiative:                ENV

6. Program Code:       EM-1

7. Location/Sites:     RL, SRS. LANL, LLNL

8. -Finding Summary:

    The Department faces many challenges before the surplus plutonium at the Hanford Site can be moved to
    SRS and then to a final disposal site. While a number of actions have been taken on these issues, none were
    completely resolved by the completion of our audit. For example, although EM had established a shipping
    schedule for consolidating Hanford's material, it is dependent on the ability of the Office of Transportation
    Safeguards to hire and train additional teams to transport the surplus plutonium. In addition, EM still needs
    to address DNFSB concerns over the lack of appropriate facilities for long term storage at SRS. Further,
    EM has yet to complete design on a method to transform the surplus plutonium into a waste form that can
    be stored at the Yucca Mountain repository. In particular, we noted that the immobilization facility at SRS
    has been cancelled, the planned Mixed Oxide Fuel Fabrication Facility has not received regulatory
    approval, and plans for disposition of the surplus plutonium have not been formally adopted.

    EM made the consolidation proposal because it believed that placing the material in one location would be
    safer, more secure, and less expensive than maintaining it at its current location. For contingency purposes,
    the Department plans to maintain the capability for temporary, above ground storage of surplus plutonium
    at Hanford to accommodate shipping or other delays during consolidation. Richland Operations Office
    officials also have indicated that based on recent discussions with EM Headquarters that they are no longer
    considering long term on-site storage of this material.

   Not resolving these uncertainties could result in significant and unnecessary expenditures as well as
   accelerated clean-up schedules. Uncertainties regarding processing capabilities and disposition pathsimpact
                                                                                                           may
   further complicate the Department's effort to satisfy statutory requirements regarding removal of Hanford's
   surplus material from South Carolina. According to the Fiscal Year 2003 National Defense Authorization
   Act, the Department must remove from South Carolina an amount equal to the amount f plutonium
   shipped into the state by January 1, 2017, or face fines of $1 million per day, up to $100 million per
                                                                                                          year.

9. Keywords: Surplus Plutonium                      Hanford
             Stabilization                          Richland Operations Office
             Weapons-Usable                         Reduce/Reduction
             Plutonium Finishing Plant              Savings
             Cost                                   Study
             DOE                                    Office of Secure Transportation
04/01/04   THU 09:55 FAX 423 241 3897          OIG                         -*-, HQ   [005

               DOE                             Office of Secure Transportation
               DOE-Richland                    DNFSB
               Effective/Effectiveness         NNSA
               Environmental Management (EM)   Top-to-Bottom Review
               Federal                         Record of Decision
